Supreme Court of the United States
MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents,
ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

As required by Supreme Court Rule 33.1(h), I, Debo P. Adegbile, a member of
the bar of this Court, certify that the accompanying Brief for The Leadership
Conference on Civil and Human Rights, The Leadership Conference Education Fund,
and 52 Other Public-Interest Organizations, as Amici Curiae in support of Respondents
contains 7,565 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on January 19, 2021.

DEBO P. ADEGBILE
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, N.Y. 10007
(212) 295-6717
debo.adegbile@wilmerhale.com

